<html>
<title> - THE TRAFFICKING VICTIMS PROTECTION REAUTHORIZATION ACT: RENEWING THE COMMITMENT TO VICTIMS OF HUMAN TRAFFICKING</title>
<body><pre>[Senate Hearing 112-938]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 112-938

                   THE TRAFFICKING VICTIMS PROTECTION
                   REAUTHORIZATION ACT: RENEWING THE
                     COMMITMENT TO VICTIMS OF HUMAN
                              TRAFFICKING

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 14, 2011

                               __________

                          Serial No. J-112-41

                               __________

         Printed for the use of the Committee on the Judiciary




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-268 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          





















                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 CHUCK GRASSLEY, Iowa, Ranking 
DIANNE FEINSTEIN, California             Member
CHUCK SCHUMER, New York              ORRIN G. HATCH, Utah
DICK DURBIN, Illinois                JON KYL, Arizona
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             LINDSEY GRAHAM, South Carolina
AL FRANKEN, Minnesota                JOHN CORNYN, Texas
CHRISTOPHER A. COONS, Delaware       MICHAEL S. LEE, Utah
RICHARD BLUMENTHAL, Connecticut      TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
        Kolan Davis, Republican Chief Counsel and Staff Director


























                            C O N T E N T S

                              ----------                              

                     September 14, 2011, 10:09 A.M.

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California,
    prepared statement...........................................    59
Grassley, Hon. Chuck, a U.S. Senator from the State of Iowa......     2
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont.     1
    prepared statement...........................................    57

                               WITNESSES

Witness List.....................................................    21
CdeBaca, Luis, Ambassador-at-Large, Office To Monitor and Combat 
  Trafficking in Persons, U.S. Department of State, Washington, 
  DC.............................................................     6
    prepared statement...........................................    38
Leary, Mary Lou, Principal Deputy Assistant Attorney General, 
  Office of Justice Programs, U.S. Department of Justice, 
  Washington, DC.................................................     4
    prepared statement...........................................    22
Ryan, Kelly, Acting Deputy Assistant Secretary, Immigration and 
  Border Security, U.S. Department of Homeland Security, 
  Washington, DC.................................................     8
    prepared statement...........................................    43

                               QUESTIONS

Questions submitted to Luis CdeBaca by:
    Senator Coburn...............................................    87
    Senator Grassley.............................................    68
    Senator Klobuchar............................................    81
Questions submitted to Mary Lou Leary by:
    Senator Coburn...............................................    83
    Senator Grassley.............................................    62
    Senator Klobuchar............................................    80
Questions submitted to Kelly Ryan by:
    Senator Grassley.............................................    71
    Senator Klobuchar............................................    82

                                ANSWERS

Responses of Luis CdeBaca to questions submitted by Senators 
  Coburn, Grassley, and Klobuchar................................    89
[Note: At the time of printing, the Committee had not received 
  responses from Mary Lou Leary.]
Responses of Kelly Ryan to questions submitted by Senators 
  Grassley and Klobuchar.........................................   121

                MISCELLANEOUS SUBMISSIONS FOR THE RECORD

Alliance To End Slavery & Trafficking (ATEST), Washington, DC, 
  October 11, 2011, letter.......................................   215
Lutheran Immigration and Refugee Service (LIRS), Baltimore, 
  Maryland, and Washington, DC, statement........................   211
Matual, Ima, Foreign National Labor Trafficking Survivor, and 
  Holly Smith, U.S. Citizen Domestic Minor Sex Trafficking (DMST) 
  Survivor, statement............................................   202
United States Conference of Catholic Bishops (USCCB), Ambassador 
  Johnny Young, Executive Director, USCCB Migration and Refugee 
  Services, and Catholic Relief Services (CRS), Kenneth Hackett, 
  President and Chief Executive Officer, Washington DC, August 
  24, 2011, letter...............................................   213
 
                  THE TRAFFICKING VICTIMS PROTECTION 
                   REAUTHORIZATION ACT: RENEWING THE 
               COMMITMENT TO VICTIMS OF HUMAN TRAFFICKING

                              ----------                              


                     WEDNESDAY, SEPTEMBER 14, 2011

                              United States Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:09 a.m., in 
Room SD-226, Dirksen Senate Office Building, Hon. Patrick J. 
Leahy, Chairman of the Committee, presiding.
    Present: Senators Leahy, Franken, and Grassley.

          OPENING STATEMENT OF HON. PATRICK J. LEAHY,
            A U.S. SENATOR FROM THE STATE OF VERMONT

    Chairman Leahy. Good morning. I apologize for being a few 
minutes late.
    The Committee will today consider the Trafficking Victims 
Protection Reauthorization Act of 2011 and how best to continue 
and improve our efforts to end once and for all human 
trafficking at home and abroad.
    Human trafficking is a modern-day form of slavery. You 
cannot call it anything else. It is a modern-day form of 
slavery in which victims are forced into labor or sexual 
exploitation. Traffickers prey on the most vulnerable members 
of society, and no country is immune. It happens here, even 
here in our own backyard.
    Earlier this summer, the Justice Department secured 
convictions against traffickers who compelled undocumented 
immigrant women hired to be waitresses to engage in commercial 
sex acts using violence, fraud, coercion, and threats of 
deportation. Unfortunately, we hear these kinds of stories 
every day. Thanks to the tools provided by the Trafficking 
Victims Protection Act, we have made progress in combating this 
major human rights abuse. But there is more work to be done.
    As a country that has been a beacon of hope to so many who 
face human rights abuses abroad, the United States has to 
address this continuing injustice around the world but also 
here, too. The original Trafficking Victims Protection Act of 
2000 and its three subsequent reauthorizations all had 
widespread bipartisan support. The original bill was passed by 
a Republican-controlled Congress and signed into law by 
President Clinton. The most recent reauthorization in 2008 was 
passed by a Democratic-controlled Congress and signed into law 
by President Bush.
    I am pleased that the reauthorization bill we are 
discussing today continues that tradition. We have as 
cosponsors Senators Brown, Rubio, and Cochran, as well as 
Senators Kerry, Feinstein, Klobuchar, Boxer, Cardin, 
Gillibrand, and Schumer. The bipartisan support for this bill 
in the Senate reflects the widespread focus on combating human 
trafficking in diverse communities across the country. 
Organizations from across the political and social spectrum, 
including faith-based groups and groups dedicated to human 
rights and women's rights, have taken up this cause. They have 
worked to raise awareness. State and local law enforcement 
agencies and prosecutors have stepped up human trafficking 
enforcement. They have initiated local investigations. They 
have worked with Federal agencies in regional task forces to 
share information.
    The National Association of Attorneys General has launched 
a major campaign to combat human trafficking in all 50 States. 
More than 40 State legislatures have followed the Federal 
Government's lead and enacted anti-trafficking statutes.
    I am proud that my own State of Vermont recently passed a 
comprehensive anti-trafficking law that includes criminal 
penalties, prevention programs, and services for human 
trafficking victims, and I commend a little State like ours of 
Vermont for taking on this important issue. Today's hearing, of 
course, will highlight the important anti-human trafficking 
work that the Federal Government is doing.
    We have witnesses from three Federal agencies that play key 
roles in Federal efforts to end human trafficking. The 
Departments of Justice, State, and Homeland Security 
investigate human trafficking crimes, use diplomatic tools to 
stop human trafficking in other countries, and they also ensure 
that trafficking victims receive crucial assistance and 
resources to assist law enforcement.
    [The prepared statement of Senator Leahy appears as a 
submission for the record.]
    With that, I yield to my friend from Iowa, Senator 
Grassley.

           OPENING STATEMENT OF HON. CHUCK GRASSLEY,
             A U.S. SENATOR FROM THE STATE OF IOWA

    Senator Grassley. Before I speak, and even before you have 
introduced the witnesses, I wanted to make the point that one 
of our witnesses, Ambassador CdeBaca, is from Huxley, Iowa, 
attended Iowa State University, and I always like to welcome 
Iowans to our hearings.
    Chairman Leahy. Huxley, Iowa, is that one of the major 
cities?
    [Laughter.]
    Chairman Leahy. He probably would be right at home in 
Vermont.
    Senator Grassley. The people of Huxley would say Ames, 
where Iowa State University is, is a suburb of Huxley.
    Chairman Leahy. I see. I know exactly where it is. It is a 
beautiful area.
    Senator Grassley. I am going to skip two or three pages of 
my remarks because I can say that I associate myself with what 
you said, feel that the bill ought to be reauthorized. But I 
make a point of saying that we have a terrible budget 
situation, and it requires that we take a close look at how 
some of this money is spent while we are in the process of 
reauthorizing.
    I will start where I say, after I have said those things, 
now that surely does not mean that we do away with the 
Trafficking Victims Protection Act. Instead, it means that as 
we in this Committee look to reauthorize this legislation, we 
need to take a hard look at every single taxpayer dollar 
expended, determine how those dollars are being used, and 
determine if the stated purpose of the program is met.
    For example, given this fiscal climate, there is no reason 
that we should reauthorize funding for the State Department to 
host official receptions at the Office to Monitor and Combat 
Trafficking in Persons, and that would have been over $300,000 
recently. So how do we address these issues to start with? We 
need a legitimate, rigorous evaluation of programs funded under 
the Trafficking Victims Protection Act to ensure that 
inefficient grantees or less than scrupulous grantees are 
prohibited from getting funds. That can be done by identifying 
and limiting poor- and under-performing grantees. And I know 
that Senator Coburn has done a great deal of work on this 
issue. He has investigated the shortcomings, mismanagement, and 
waste in several programs funded under the program. I 
appreciate the hard work that Senator Coburn has done and look 
forward to working with him as we pursue this legislation.
    Additionally, there are a number of audits and reviews 
conducted by GAO and the Department of Justice Inspector 
General on the Trafficking Victims Protection Act. These audits 
reveal mismanagement, failed oversight, and waste of taxpayer 
dollars in implementing the programs to help trafficking 
victims.
    For example, the Inspector General found in a 2008 review 
that there were ``systemic weaknesses in the Office of Justice 
Programs grant implementation.'' The Inspector General found 
weaknesses in areas of ``established goals and accomplishments 
for grantees, grant reporting, fund drawdowns, local matching 
funds expenditures, indirect costs, and monitoring of 
subrecipients.'' Further, the Inspector General found that 
while the Department of Justice builds significant capacity to 
serve victims, they ``have not identified and served 
significant numbers of victims.''
    Unfortunately, it was more of the same when we looked at 
audits conducted in individual grant recipients awarded funding 
under the Trafficking Victims Protection Act in seven separate 
audits of individual grantees dated 2007 to 2010. The Inspector 
General found hundreds of thousands of dollars in questioned 
costs, unauthorized expenditures, failed matching requirements, 
and many other problems.
    It is really disheartening to see that every single audit 
that was done by the IG of grantees found problems. It begs the 
question: What is the Department of Justice doing with taxpayer 
dollars? Do they view it as Monopoly money that can be handed 
out with no accountability? Given the current fiscal situation, 
these audits are amazing.
    The Department of Justice has some serious explaining to do 
because between these audits and the ones that I reviewed as 
part of the hearing held back in July on the Violence Against 
Women grants, it appears that the Department continuously 
awarded grants to entities that cannot manage the money 
appropriately. We have a duty in this Committee to ensure 
taxpayer dollars are spent appropriately. From the audits on 
this program and many others administered by the Department of 
Justice, it seems that that is not being done.
    Holding grant programs accountable will help to ensure that 
services really go to those in need, and before we reauthorize 
the specific dollar amounts, we need strong oversight language, 
including the legislation, to ensure that failing grantees will 
not be rewarded with additional taxpayer money and to ensure 
that Government officials will be held accountable for repeated 
failures to oversee grants.
    We are well past the time when we can reauthorize programs 
without giving them the scrutiny needed to ensure that the 
people they are trying to help--that means the victims of 
trafficking--are, in fact, getting the services that they need. 
If we allow grants to be mismanaged, a victim who could have 
been helped goes without. We must do everything in our power to 
help victims of trafficking, but we also must protect taxpayer 
dollars.
    So it is through this testimony and the debates that we are 
going to have on these bills that I will bring some of these 
points out. Thank you, Mr. Chairman.
    Chairman Leahy. Thank you. And I agree that you have to 
have effective and efficient grant management, but I do 
understand the Inspector General's most recent report praises 
the Office of Justice Programs for its significant improvement, 
and I am glad to hear the Department of Justice did take the 
Inspector General's suggestions to heart. And I was pleased to 
see his response that there are significant improvements.
    Mary Lou Leary is the Principal Deputy Assistant Attorney 
General for the Office of Justice Programs at the Department of 
Justice, a position she has held since September 2009. Prior to 
rejoining the Department in May of 2009, she served as 
executive director of the National Center for Victims of Crime. 
She has previously held a number of positions within the 
Department of Justice, serving as U.S. Attorney for the 
District of Columbia and Acting Director of the Office of 
Community-Oriented Policing Services and Deputy Associate 
Attorney General.
    You are no stranger to this Committee, and, Ms. Leary, we 
are delighted to have you here. Please go ahead.

         STATEMENT OF MARY LOU LEARY, PRINCIPAL DEPUTY
 ASSISTANT ATTORNEY GENERAL, OFFICE OF JUSTICE PROGRAMS, U.S. 
             DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Ms. Leary. Thank you, Chairman Leahy, Ranking Member 
Grassley, and any other Members of the Committee who may join 
us. I appreciate this opportunity to discuss OJP's commitment 
to combating human trafficking and to serving human trafficking 
victims.
    This is a high priority for President Obama. It is a high 
priority for this Department of Justice. It has also been a 
high priority for me in my own career when I was at the U.S. 
Attorney's Office in D.C. The very first anti-trafficking task 
forces were put together, and I was very involved in 
establishing that task force in the District of Columbia, and 
one of the most satisfying things about that was that for the 
first time we actually had a formal task force that included 
both law enforcement and victim service providers.
    Fighting human trafficking and serving human trafficking 
victims are enormously difficult challenges for law enforcement 
and for victim service providers. Oftentimes those trafficking 
victims are hidden from society, and because of this kind of 
secrecy, it is very difficult to get accurate statistics about 
the extent and the prevalence of the problem.
    Congress provided very critical tools to combat trafficking 
in the Trafficking Victims Protection Act and subsequent 
reauthorizations. So I am very pleased that Congress and that 
this Committee in particular is demonstrating leadership by 
coming together in a bipartisan way to reauthorize the Act.
    OJP's efforts to combat human trafficking span the entire 
agency. My written testimony gives you details about what each 
one of the bureaus and program offices is doing and how we 
collaborate together on the issue. Today I just want to 
highlight the multidisciplinary approach and what we call 
``wrap-around services'' for trafficking victims.
    This basically means meeting victims where they are and 
helping them to work through the impact of crime. It means 
support for victims during their interaction with law 
enforcement. Wrap-around also means providing both short-term 
and long-term assistance, culturally competent services that 
treat victims with dignity and with respect.
    Experience demonstrates that effective law enforcement in 
trafficking cases and effective victim services do--and they 
must--go hand in hand. Victim service providers may be able to 
identify some victims of a particular trafficker, but they 
often need effective law enforcement to identify and to reach 
out to those other victims. And law enforcement in turns needs 
victim service providers to work with them and to work with the 
victims to collect critical information and to give the victims 
that sense of safety and protection.
    Victims who receive needed support will be much more able 
and willing to participate in the investigation and the 
prosecution of the traffickers, and that has been my personal 
experience in my many years as a prosecutor.
    Each of the 42 anti-trafficking task forces we fund 
includes local or territorial, State, and Federal law 
enforcement and victim service providers. They investigate 
trafficking, they support prosecutions, and they raise public 
awareness of the issues, and provide, of course, critical 
services to the victims.
    Between January 2008 and June 2010, the task forces 
investigated more than 2,500 suspected incidents of human 
trafficking and made 144 arrests. But because one trafficker 
can hurt dozens or even hundreds of victims, this is a 
significant achievement. My written testimony includes examples 
of successful task force cases.
    In fiscal year 2011, we competitively awarded almost $6 
million for six task forces in the selected sites that have a 
history of proactively investigating and prosecuting 
trafficking offenses and helping the victims. We also awarded 
an additional $3.7 million to 11 organizations specifically to 
provide comprehensive and specialized victim services. And we 
made sure that these service providers had a strong track 
record in trauma-informed and culturally competent services to 
trafficking victims.
    We also provide training and technical assistance to task 
forces nationwide, regardless of whether they are our grantees, 
and we developed an e-guide which is available to all 
communities.
    We certainly are aware and we agree with this Committee 
that we want to make sure the funds are being used wisely and 
that we are not duplicating efforts. Our commitment to this is 
reflected in our participation in the Senior Policy Operating 
Group to coordinate the work of multiple agencies, and I want 
to make clear to the Committee that before we award a dollar in 
grant funding, we run it by that Senior Policy Operating Group 
so that we will know that we are not duplicating our efforts.
    We have strong oversight of our grantees. More details, 
again, are in my written testimony, and as Senator Leahy 
pointed out, the Inspector General's office recently did 
determine that OJP had made significant improvements, and we 
are aware that that is a constant struggle, and we work at it 
every day.
    So thank you. I am happy to take any questions.
    [The prepared statement of Ms. Leary appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much.
    We will hear from all three witnesses, then go to 
questions. Ambassador CdeBaca is the Ambassador-at-Large at the 
Department of State's Office to Monitor and Combat Trafficking 
in Persons, and I appreciate the fact being from Iowa and 
getting my geography lesson here this morning. Prior to his 
appointment, he was a prosecutor at the Department of Justice, 
and Ambassador CdeBaca was the lead trial counsel in what was 
then the largest slavery prosecution in U.S. history, over 300 
workers enslaved in a garment factory in American Samoa. A 
very, very significant case.
    Please go ahead, sir.

        STATEMENT OF LUIS CDEBACA, AMBASSADOR-AT-LARGE,
   OFFICE TO MONITOR AND COMBAT TRAFFICKING IN PERSONS, U.S. 
              DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador CdeBaca. Thank you, Mr. Chairman, Senator 
Grassley, and the entire Membership of the Committee. Thank you 
for the opportunity to testify today.
    As you put it, Mr. Chairman, this is nothing less than 
modern slavery that we are dealing with. The term ``trafficking 
in persons'' describes all of the conduct involved in reducing 
a person to or maintaining them in a state of compelled 
service, and estimates are up to 27 million men, women, and 
children victimized globally. Fortunately, there are hundreds 
of governments and NGOs who are committed to meeting this 
scourge.
    But as is often the case in places where poverty and 
corruption hinder the good intentions of committed people, a 
lack of resources and capacity are sometimes insurmountable 
road blocks to those who seek to save victims from exploitation 
and bring their traffickers to justice.
    That is perhaps why in the last 2 years my office has 
received 998 applications for assistance from 546 
organizations, requesting a total of $547 million. Our foreign 
assistance budget for the last 2 years was $39.1 million--not 
even 10 percent of the demonstrated need--and we took a 24-
percent pay cut, as it were, in the spring, down to under $17 
million in program funds.
    We know that it will never be possible to give every 
organization the help that they want, and we know that we have 
a responsibility to be responsible custodians of taxpayer 
dollars. And so we have implemented a rigorous and transparent 
review process to ensure that every cent of our foreign 
assistance appropriation is spent responsibly, is put to the 
use where it will do the most good, and has a multiplier effect 
far above the $17 million that we have to spend.
    We support grantees that are working to advance the 3P 
paradigm--prevention, protection, prosecution--that guides our 
effort to combat slavery here at home and around the world. 
These efforts are closely linked to the mandates and purposes 
that are laid out in the United Nations Trafficking Protocol as 
well as the Trafficking Victims Protection Act and its 
subsequent reauthorizations, which, as you pointed out, 
Senator, enjoyed unprecedented and much appreciated bipartisan 
support throughout the years. The provisions of that 
authorizing legislation helped to prioritize the allocation of 
the anti-trafficking funds from the appropriated State 
Department money.
    Because the three Ps function as an interlocking paradigm, 
no single aspect stands alone. It is not enough to prosecute 
traffickers if we do not also provide assistance to the 
survivors and work to ensure that no one else is victimized. So 
we try to have projects that are cross-cutting in their 
approach, placing a particular emphasis on programs that 
involve victim protection, because we realize that it may be 
that the American program in a country is the only way that a 
trafficking victim will be helped. So 90 percent of projects we 
funded last year, even if they have a strong prosecution 
element, also include a protection component, and 61 percent of 
them provide direct services to victims.
    Our foreign assistance priorities and our programming 
priorities are strategically linked to the tier rankings and 
diagnostic assessments included in the annual Trafficking in 
Persons Report, and my prepared testimony details specifically 
our grant application review process as well as the steps that 
we take to monitor the use of funding after it has gone out the 
door. I ask that it be included in the record in its entirety.
    To summarize it, though, applications are solicited through 
an open process, thoroughly reviewed by my office, other State 
Department offices, USAID, interagency partners, and are sent 
to the Hill for congressional notification prior to the 
disbursement of funding. Following the awards, we monitor and 
evaluate the programs. We have officers who work to ensure 
project goals and objectives are implemented and funds are used 
responsibly, and program progress and financial reports 
throughout the project period are required, including final 
reports within 90 days of the end of the project.
    We take very seriously the responsibility attached to the 
use of these funds, but the real success is not the fact that 
we have an efficient program design and controls. The real 
success are the people--people like Shweyga Molla. A few weeks 
ago, a CNN crew found her in the former home of Muammar 
Qaddafi's sons. She had become a trafficking victim when she 
left her home country of Ethiopia. She worked as a nanny for 
the Qaddafi grandchildren, and when she displeased the men and 
women for whom she worked, they poured boiling water on her 
head to punish her. She had no passport, no identification, no 
one who could help her. When the Qaddafi family fled the 
compound, she was left behind, 3-month-old burns still open and 
seeping.
    Though we have no direct presence in Tripoli yet, the State 
Department was able to coordinate the effort through one of our 
grantees, the International Organization for Migration, to 
begin the process of getting Ms. Molla out of Libya and to a 
safe haven where she could begin the process of recovery. We 
hope that she will soon be wheels up and under the care of both 
burn specialists and those who work with survivors of modern 
slavery.
    This is simply one high-profile incidence and one example 
of how important it is to work on these cases. But she is 
merely one of 27 million, and we can never forget that, because 
fighting slavery is more than good foreign policy. It is part 
of who we are as a Nation. The last decade has seen renewed 
American leadership against slavery, here at home and in our 
conduct around the world. The U.S. victim care regime is a 
global model for both restoration and rehabilitation of 
victims. The leadership is shown by our programs, our domestic 
activities, and our willingness to hold ourselves to the same 
standards by which we assess other countries, by including the 
United States in the annual Trafficking in Persons Report.
    I thank you, again, for the opportunity to testify today, 
and we look forward to working with the Committee further to 
provide information or answer questions that would provide 
additional clarity or background.
    [The prepared statement of Ambassador CdeBaca appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much.
    Our last witness will be Kelly Ryan, who is the Acting 
Deputy Assistant Secretary for Immigration and Border Security 
at the Department of Homeland Security. She is responsible for 
policy oversight and development in immigration and border 
security issues at the Department. Prior to joining the 
Department of Homeland Security, she served as the Deputy 
Assistant Secretary of State for the Bureau of Population, 
Refugees, and Migration.
    Please go ahead, Ms. Ryan.

  STATEMENT OF KELLY RYAN, ACTING DEPUTY ASSISTANT SECRETARY, 
 IMMIGRATION AND BORDER SECURITY, U.S. DEPARTMENT OF HOMELAND 
                    SECURITY, WASHINGTON, DC

    Ms. Ryan. Thank you. Good morning, Chairman Leahy and 
Ranking Member Grassley. Thank you for inviting me to discuss 
the Trafficking Victims Protection Reauthorization Act and DHS' 
role and progress in implementing it. This is an important 
hearing for me as well since I have worked on trafficking 
issues since prior to the passage of the landmark TVPA.
    Combating human trafficking and protecting victims remain a 
top priority for DHS. We have educated and trained our 
officers, prioritized the identification of traffickers and 
their victims, and coordinated enforcement actions.
    We have also played a critical role in providing victim 
assistance to foreign victims of trafficking in the United 
States through Continued Presence and the provision of T and U 
nonimmigrant status.
    In July 2010, Secretary Napolitano launched the Blue 
Campaign to coordinate and enhance the Department's anti-
trafficking efforts. Seventeen DHS components are involved in 
this campaign, which is chaired by the Senior Counselor to the 
Secretary, Alice Hill.
    The Blue Campaign is comprised of the collaborative 
initiatives spanning the three President of the U.S. 
Government's anti-trafficking efforts--prevention, protection, 
and prosecution--as well as a fourth P that we have added--
partnership--which is critical to our success.
    In fiscal year 2010, USCIS reached the annual cap of 10,000 
principal U-visas. In fiscal year 2011, USCIS expects to reach 
the cap for the second year in a row. In fiscal year 2010, 
USCIS had granted T nonimmigrant status to 796 victims of human 
trafficking and their families--the highest number granted 
since the implementation of the T-visa program.
    Eighteen of the 26 ICE Homeland Security Investigations' 
offices have hired full-time victim specialists. ICE has a 
child forensic interview specialist to improve its ability to 
communicate with child victims.
    ICE has designated 39 human trafficking experts to handle 
human trafficking leads, address urgent victim needs 
appropriately, and serve as designated points of contact for 
our field and follow leads generated through our Tip Line.
    Under the Blue Campaign, we have worked diligently to 
provide informational materials about human trafficking, 
including international and domestic public awareness 
campaigns, which have reached millions of people.
    Training is critical to our efforts. DHS is finalizing a 
new computer-based training course for its employees to 
increase awareness of human trafficking issues and provide 
information about the indicators. DHS has also produced 
training on human trafficking for law enforcement officers.
    ICE provides annual training to field office juvenile 
coordinators and other key field office staff on the 
transportation, care, treatment, and placement of minors. In 
March 2011, CBP implemented a new annual mandatory TVPRA 
training. To date, over 34,500 CBP officers, agents, and 
specialists have taken this training. USCIS also provides 
training to law enforcement officers as well as NGOs that 
assist trafficking victims.
    DHS has worked diligently to implement the provisions 
relating to UACs identified under the Trafficking Victims 
Protection Act. Our role is critical to protecting children. I 
am proud to note that while TVPRA requirements are limited to 
the screening of unaccompanied alien children from contiguous 
countries, CBP issued guidance in March 2009 requiring its 
officers and agents to screen all UACs for the risk categories, 
including severe trafficking and fear of persecution.
    Absent exceptional circumstances, UACs are turned over to 
Health and Human Services within 72 hours after determining 
that the child is unaccompanied. DHS recognizes that holding 
UACs in our facilities for a prolonged period is not in the 
best interest of children.
    I would also like to take this opportunity to highlight 
some of our successes.
    At our L.A. office, ICE agents investigated and 
successfully rescued 15 victims who were forced into 
prostitution by a family-run trafficking organization. As a 
result of our agents' successful investigation, we were able to 
prosecute and obtain convictions for nine foreign nationals. 
These individuals were found guilty of sex trafficking of 
children and other offenses.
    TVPRA permits derivative family members to receive 
nonimmigrant status based on a fear of retaliation from 
traffickers. In 2010, we approved a T-visa for a mother of a 
sex trafficking survivor based on this new exception and worked 
with the State Department to bring the victim's mother to the 
U.S. The mother, who had received death threats from the 
traffickers, was able to reunite with her daughter and to 
testify at her daughter's trial.
    We have made remarkable progress since the passage of the 
landmark law in 2000. We believe there is work yet to be done. 
For example, DHS will continue to refine its guidance on 
Continued Presence and discretionary parole of trafficking 
victims' relatives. ICE recently issued a protocol on Continued 
Presence which outlines the procedures for law enforcement 
agencies to request Continued Presence and explains their 
respective roles.
    With regard to parole for relatives of trafficking victims, 
ICE's Continued Presence guidance specifically incorporates the 
TVPRA expansion.
    Secretary Napolitano has led DHS efforts to combat human 
trafficking and has made this issue a top priority for the 
Department. We are committed to fighting human trafficking 
through protection, prevention, prosecution, and partnerships.
    Thank you, again, for the opportunity to testify. I would 
be pleased to answer any of your questions.
    [The prepared statement of Ms. Ryan appears as a submission 
for the record.]
    Chairman Leahy. It is good to know from all three of you 
the names of the procedures and the programs and all. That we 
will put in the record. And I am not suggesting it is not 
important, but it reminds me sometimes of PowerPoint 
presentations where everybody's eyes may glaze over. I suspect 
what people are going to remember of this hearing is what 
Ambassador CdeBaca said about Ms. Mullah in Tripoli and, Ms. 
Ryan, what you spoke of, the mother being brought back to 
testify. It is some of these real stories far more than the 
names of what our programs are and which Department and all 
that are important if we want to actually get this reauthorized 
because people have to know exactly what it is.
    And so with this in mind, Ambassador CdeBaca, in your 
written testimony, you discuss the work being done to fight 
trafficking in Mexico, Cote d'Ivoire, and Thailand. Tell me 
what is being done, tell me some more about what is being done 
in those countries, what you are funding. What is that doing 
with individual lives? I mean, these are three major places.
    Ambassador CdeBaca. Mexico is perhaps the most complex of 
all of them, I think, because so much of what happens in the 
fight against trafficking in Mexico also is happening in the 
United States. It really requires a level of jointness in our 
approach. And so one of the things that we have seen is the 
heroism of folks from the Mexican nongovernmental 
organizations, journalists like Lydia Cacho in the State of 
Quintana Roo, which is where the tourist areas of Cancun are, 
who has investigated child sex tourism and investigated child 
sex trafficking, even to the highest levels of State 
government, to the point where she had to flee to neighboring 
states to get protection from their State police because of 
corruption issues.
    One of the things that we are trying to do is to make sure 
that people like her are supported--supported not only with 
funding to the NGOs that she is working with, but also the work 
that we and the Department of Justice and DHS are all doing 
jointly with an embassy task team on trafficking which folks 
from each of our agencies that are supporting the work of the 
Mexican Government to investigate and prosecute these cases.
    So you have got prosecutors like Delcia Garcia in Mexico 
City who have gone from a D.A.'s office that was basically 
doing zero trafficking cases 3 or 4 years ago to having dozens 
of cases on their docket. They are doing that because of the 
training that they are receiving and the encouragement that 
they are receiving from the United States presence at our 
embassy, but also here in Washington.
    One of the things that we have seen is that the Civil 
Rights Division now has been investing cases with the Mexicans 
in both countries. So Mexican police were able to come up to 
Atlanta and investigate their part of the case, interviewing 
the witnesses, and at the end of the day we were able to get 
prosecutions successfully done in both countries. Rather than 
being consumed by extradition paperwork, we were able to take 
apart the traffickers on both sides. I think that is a 
perfect----
    Chairman Leahy. So what you have is a case where they will 
use these children, try to bring people down to these resort 
areas, enslaving the children for that.
    Ambassador CdeBaca. Exactly.
    Chairman Leahy. And it was happening with no prosecutions 
before.
    Ambassador CdeBaca. That is correct.
    Chairman Leahy. And obviously, or at least I assume from 
what you are saying, with help here in the United States from 
individuals. Is that correct?
    Ambassador CdeBaca. With help here in the United States 
from individuals from DHS, DOJ, and the State Department, with 
some of our grantees working with their legislatures----
    Chairman Leahy. No, I mean they had people who were 
conspiring down there and here in the United States.
    Ambassador CdeBaca. Oh, yes. Indeed.
    Chairman Leahy. And those you were able to prosecute?
    Ambassador CdeBaca. We have been able to prosecute both 
sides of the criminal organization, both here in the U.S. and 
in Mexico. And part of that is because of the technical 
assistance that we were able to provide through our grantees 
and directly to the Mexican Congress when they were able to 
pass a law that is very similar to the Trafficking Victims 
Protection Act. It solved a lot of the legal impediments that 
they were facing out in the field. We had some real leadership 
from both the Senate and the House of Deputies.
    The same types of things are happening in the other 
countries that you mentioned. I want to specifically mention 
Cote d'Ivoire where our grantee, Prosperite, was able to 
continue to serve victims even as their shelter came under 
direct fire during the unfortunate incidents earlier this year 
with the holdout government. They were in the middle of a war 
zone, and they continued to take care of those children.
    Chairman Leahy. That is amazing.
    Ms. Leary, you talked about how law enforcement was able to 
prosecute cases when appropriate victim services are available. 
You referenced a case where the Department of Justice helped a 
trafficking victim secure a T-visa for her children who had 
been left behind in Mexico and were threatened by traffickers. 
Tell us how this T-visa works and how important that was and 
what effect that has on our ability to prosecute trafficking 
cases.
    Ms. Leary. Senator, I can speak to how important it is for 
victims to feel safe, but I would defer to DHS on the specifics 
of how the T-visa program works. But I can tell you that for 
many years as an ADA and an Assistant U.S. Attorney and then as 
the director of a national victims advocacy organization, the 
number one concern of any victim of any crime is safety. A 
victim needs to feel safe before he or she can even speak about 
what has happened to him or her, let alone cooperate with law 
enforcement.
    But my experience also tells me very strongly that if a 
victim is going to cooperate in an investigation or in a 
prosecution, the victim has to feel that he or she can trust 
the law enforcement folks who are involved in it, and you build 
that trust by specific mechanisms to make the victim feel safe 
and by providing the kinds of services--health care, 
counseling, places to live, to be safe, to be with their 
children. That is how you build the trust. But I defer to DHS.
    Chairman Leahy. Also, we see right here in the United 
States a headline in a local paper here in the last few days 
about a vicious crime here in the District of Columbia, and 
nobody seems to know what is going on, and they will not talk 
to the police or anything else. I look at the District of 
Columbia, which has the same population as my State of Vermont, 
and I remember a year or so ago reading in the paper that they 
had as many murders over a weekend as we had in a year in 
Vermont.
    Ms. Leary. Right.
    Chairman Leahy. I will not go into questions if it is 
competence or anything else when that sort of thing happens, 
but, Ms. Ryan, if we are going to go into--and I apologize, 
Senator Grassley, if I could just continue on this. We talked 
about the T-visa. That started in 2002, I believe. But since 
that time, only 2,500 have been issued to trafficking victims, 
just a few hundred a year. Why are these numbers so low? You 
have other types of protection-based immigration visas. Why 
aren't more T-visas applied for or issued?
    Ms. Ryan. Thank you, Senator. First, on the question that 
you asked my colleague, I would like to say that on the 
Carretero case, which I have some knowledge of, actually the 
provision of the T-visas to the dependents of the victims was 
absolutely critical in the successful prosecution which led to 
very long sentences. So we believe from a DHS perspective that 
the provision of a T-visa to the victim and their dependents is 
absolutely critical to the law enforcement piece as well as 
victim assistance.
    In terms of the numbers, you are absolutely right, we have 
come nowhere near the number permitted, the statutory cap of 
5,000. I think the chief reason for that--we have alluded to it 
this morning--is the difficulty in finding the victims. They 
are, you know, often secreted. Sometimes there are 
circumstances where it has been so debilitating that they 
prefer to return home. But the numbers are small, and we 
carefully vet each and every case.
    Chairman Leahy. And these are also people who are not used 
to having----
    Ms. Ryan. Trust in the law enforcement community.
    Chairman Leahy. Ambassador CdeBaca talked about the 
situation in Mexico. There are a lot of place there where the 
last thing in the world you would want to do is go to the 
police. When prosecutors do not dare go to the police without 
the possibility of being killed, why would a victim?
    Ms. Ryan. That is right. We try to take a victim-centered 
approach, as does the Department of Justice, but it is a very 
difficult trust exercise to build the trust with the victims.
    Chairman Leahy. Thank you. Thank you very much to all three 
of you. I appreciate the testimony. As a parent and a 
grandparent, when I look at the ages of some of these people 
and the vulnerability of them, and even the adults, the fact 
that they are so totally vulnerable, they are treated as 
chattel, not as human beings, in 2011--I mean, this is 
horrible.
    Senator Grassley, again, I appreciate your forbearance in 
letting me go over time, but this is something I care very 
deeply about. Go ahead, please, sir.
    Senator Grassley. Yes, thank you very much.
    I am going to start out with Ms. Leary on this prosecution, 
if I could, and obviously it has been very clear here in our 
discussion that one of the critical ways that we accomplish 
combating trafficking is bringing successful prosecutions. 
Victim advocates have questioned--I am following what victim 
advocates tell me. They have questioned the low number of 
trafficking prosecutions brought last year by the Department of 
Justice. One of the hurdles that advocates have identified is 
the low number or lack of witnesses. Obviously, prosecutors and 
law enforcement officers need witnesses and cooperation from 
victims in order to combat trafficking.
    There is a provision in the pending bill that makes it 
easier for victims to not cooperate with law enforcement. Now, 
there may be circumstances where visa applicants should be 
excused from cooperation, but that should be a rare exception, 
in my view.
    So does the Department of Justice support legislation that 
makes it easier for visa recipients and potential witnesses to 
be excused from cooperating with law enforcement officials? And 
if the answer is yes, then I would like to have you explain to 
me how this helps human trafficking investigations?
    Ms. Leary. Senator Grassley, I would start by saying that 
the Department has not yet finished its review of a formal 
position on that legislation, so I cannot give you an official 
position for the Department.
    I would, however, say that in general in our work we have 
two objectives which you hope work in concert. One is to serve 
and to protect victims of trafficking, and another is to 
prosecute traffickers and those who perpetrate these offenses. 
And in the best of all worlds, you prosecute a case, and you 
are meeting all the needs of the victims, and you are also 
getting everything you need for successful prosecution. But in 
the real world, I have to say that, based on my own experience, 
requiring certain levels of cooperation from victims does not 
always work, and, you know, there are victims who are so 
traumatized, so incapable of functioning, really, and making 
rational decisions, who are so fearful, that you cannot really 
rely on any--necessarily rely on even what you have to offer 
them.
    So we look forward, though, to providing comments on the 
proposed legislation, and we will do that.
    Senator Grassley. Since you said your Department has not 
studied the bill and you cannot give us a position, would you 
provide us--well, I guess I would like to have you say that the 
Department would provide us their views on the provision before 
we mark up the legislation on that question I just asked you.
    Ms. Leary. We will provide those views as soon as possible, 
and I hope that it will be before the markup, and I will 
certainly get back to the Senator on that.
    Senator Grassley. But that would be on the specific point I 
was making about whether it is better to make it easier for 
visa recipients to be excused from cooperating.
    Ms. Leary. Yes, I will certainly bring that right back to 
the Department and let them know that you would like----
    Senator Grassley. Closely connected with this, but not a 
long answer, do career prosecutors have the final word on 
whether visa applicants are excused from cooperating with law 
enforcement? And if the prosecutors do not, why do they not 
have that authority?
    Ms. Leary. I do not have the answer to that question, sir, 
and I will have to get that for you.
    Senator Grassley. In writing?
    Ms. Leary. I think maybe DHS has the answer.
    Senator Grassley. If she would have the answer, that is 
okay with me. But I assume it is under the--isn't it within the 
Justice Department as opposed to Homeland Security?
    Ms. Ryan. Senator, the T-visa requirement for the 
adjudication is within the Department of Homeland Security, and 
the requirement is that they be willing to cooperate. And so 
our adjudicators look to make sure that they are willing to 
cooperate, and we can take evidence from the law enforcement 
officials on that issue.
    Senator Grassley. Okay. And so if Justice has a role in 
that, then I would like to have that answer in writing from 
you, Ms. Leary.
    Ms. Leary. Certainly.
    Senator Grassley. And for you, another question, and it 
gets back a little bit to what the Chairman brought up about T-
visas and U-visas. Generally, in order to receive either of 
these visas, an applicant must comply with reasonable requests 
from law enforcement. However, there are exceptions to the 
cooperation.
    So my first question is: Which unit at Homeland Security 
makes the decision to excuse T- and U-visa applicants from 
having to cooperate with law enforcement? And what criteria are 
used in deciding whether to grant an exemption?
    Ms. Ryan. Thank you, Senator. The Vermont Service Center 
has a specially trained group of adjudicators that decide the 
T- and U-visa applications, and they look at the willingness to 
cooperate. We reach out and can reach out to our colleagues in 
the law enforcement community to ensure that the cooperation is 
there.
    Also, law enforcement can submit a form showing that the 
person is cooperating. The cooperation cannot be excused, but 
you are right that there are certain times where it is not 
required, and that is in circumstances, for example, when the 
person is under the age of 18. We do not require minors to 
testify. But they must cooperate, and that cannot be excused.
    Senator Grassley. Do the people at the Vermont unit making 
the exemption decision actually meet in person with the 
applicant requesting the exemption? And if they do not meet in 
person with them, why not?
    Ms. Ryan. We adjudicate the application on a paper review, 
but we also reach out and have information from the law 
enforcement people. But we do not require them to come to 
Vermont for the decision on the T.
    Senator Grassley. Okay. Are the decisions of the unit 
employees reviewed or tracked to see if there are any patterns 
of denying exemption requests or being overly generous in 
granting them?
    Ms. Ryan. Yes, all of the T- and U-visa applications have 
supervisory review, and one of the reasons we made one unit 
rather than have them be accepted all over the country was to 
make sure that there was uniformity in the decision. So that 
actually helps us with that particular piece.
    Senator Grassley. Ms. Leary, I wanted to talk to you about 
grants, and I am aware of the fact that the Chairman said that 
the IG said that maybe there has been improvements in this 
area. So I kind of want to be sold on that fact if that is 
true.
    It is kind of like we are running into the same problems 
with the IG or GAO review of grant applicants pretty much like 
we did the Violence Against Women Act when we had that hearing 
in July. Every time that we look at audits of individual 
grantees or serious problems, unauthorized expenditures, 
failure to provide matching funds, questionable costs, these 
select individual audits signal to me that there is a bigger 
problem.
    My first question is: The Inspector General audited seven 
trafficking grantees and found serious problems in all seven. 
These audits randomly selected grantees and concluded that 100 
percent of the grantees audited have serious problems. One 
grantee was given over $2 million for human trafficking 
assistance. The Inspector General questioned $900,000 in 
salaries and $174,000 in fringe benefits because they did not 
have supporting documents. And I hope you could shine light on 
those? If, in fact, you agree that those are failures, how is 
that helping trafficking victims? And that is the whole point 
of the program.
    Ms. Leary. Senator Grassley, I agree that those are 
failures, and I will say that the Office of Justice Programs 
has basically turned its relationship with the Inspector 
General's office into one of collaboration, and based largely 
on the fact that we take very seriously what we learn from 
these audits. And we looked at the particular audit that you 
are speaking of. We looked very closely. The first thing we did 
was we worked with each and every one of those grantees to 
resolve all the issues that were pointed out in the audit. 
Every single one of those audits has been closed except there 
are two where the OIG still has the request for closure pending 
and we do not expect to have a problem with that.
    But perhaps the most important thing is that the Office of 
Justice Programs looked at the individual audits, got them 
closed, but more importantly, developed systems to work with 
and to monitor all of our grantees in the trafficking realm in 
particular but across the board, so that these kinds of things 
would not continue to happen. And there are a few specifics 
that I could highlight for you, Senator Grassley, with respect 
to that particular audit.
    One of the failures--it is not so much untimely reporting. 
It was inaccurate reporting. And so BJA, the Bureau of Justice 
Assistance, and the Office of Victims of Crime both developed 
and implemented reporting tools, data reporting tools, which 
the Bureau of Justice Statistics helped them to shape. And then 
they improved those tools so that, for instance, a grantee who 
used to report the children of a victim as victims, so we were 
not getting accurate data, we changed the reporting system so 
that you cannot do that. There are separate places to report, 
for instance, children of victims. So the data we are getting 
is more accurate.
    In addition, the Office of Victims of Crime specifically 
based on that audit developed a very detailed checklist, and 
every application that comes in from a grantee who wants to do 
human trafficking work has to pass that checklist, and it is 
extremely detailed, geared right towards the findings of the 
Inspector General. And there is an extremely thorough review of 
the budget and the program strategy as well. It takes time to 
do that kind of up-front preventive work, but it is definitely 
worth it because it is really the best way we know to avoid 
these kinds of problems in the future.
    Senator Grassley. I have already used more time than the 
Chairman did. Just let me ask you, and shortly answer this: Do 
you ever recover any money from any of these grantees when it 
has been misused?
    Ms. Leary. We do. We do. I do not know the specifics on 
these particular audits, but, yes, we do. And, in addition, we 
take that data that we get from their reporting, and we take 
information like what we got from the Inspector General, and 
that is considered very seriously in applications for future 
funding.
    Senator Grassley. May I sum up by saying I think you are 
telling me that we will not see these problems in the future, 
then?
    Ms. Leary. I hope not.
    Senator Grassley. Okay. Thank you very much.
    Chairman Leahy. And I appreciate these answers, too. 
Senator Grassley and I share concerns about these programs 
working right. We want them to work right. And I appreciate 
that you have been working with the Inspector General to 
improve them.
    I am going to place in the record letters of support from 
the Alliance To End Slavery and Trafficking, the Lutheran 
Immigration and Refugee Services, letters from two people who 
have been involved. You just cannot read these reports without 
your skin crawling at some of the things going on, so we want 
you to be successful.
    [The letters appear as submissions for the record.]
    Chairman Leahy. I am going to turn the gavel over to 
Senator Franken, and if others come, he will turn the gavel 
over to them. Senator Grassley has to go to Finance. I have to 
go to Appropriations. Senator Franken, I thank you for--and you 
have had a long----
    Senator Franken. I know Senator Grassley has to go, and I 
just wanted to say something nice about the Ranking Member, so 
you can hear it as you are walking out, if you like.
    [Laughter.]
    Senator Franken. I know you have to go to Finance. I was 
just going to say how he always is reading these audits and he 
is one of the Members of this body who keeps an eye on that and 
does a marvelous job doing it, and he is a wonderful Member of 
this body because of that. Thank you very much.
    Chairman Leahy. And I agree with you.
    Senator Franken. Okay. Now that he is gone.
    [Laughter.]
    Senator Franken. No.
    Ms. Leary and Ambassador CdeBaca, I would like to start 
with both of you because your Departments are doing amazing 
work to combat a huge problem, but it would be a mistake to 
pretend that we are not in the middle of a budget crisis where 
hard choices have to be made about what programs are worthy of 
continued funding at the same level, and this reauthorization 
is actually a reduction from what we authorized in 2008, and I 
think it is important for people to understand how many people 
need trafficking assistance.
    Can you tell me for each of your programs how large the 
demand is and what unmet need there is?
    Ambassador CdeBaca. Thank you, Senator. There is a lot of 
unmet need. As you may know, the State Department Trafficking 
in Persons Office's budget for programs was cut by about 24 
percent earlier this spring, so we are down to a little bit 
under $16.5 million in a world in which there is about 27 
million people who are enslaved. And so we are not talking even 
$1 a person at that point.
    What we have seen is over the last 2 years almost a 
thousand--998--applications for assistance requesting $547 
million. That is for prosecutor training, police training, for 
shelters for the victims around the world, and our foreign 
assistance budget that we were able to get out the door for 
that was about $39.1 million in total. So not even 10 percent 
of the demonstrated need being met from what we have been able 
to do. And, again, the 24-percent reduction this spring.
    We certainly know shared sacrifice, and we are making our 
money go as far as we can, but that is something that certainly 
is starting to play out in the field in that there are some 
countries in the world in which if we are not funding the 
victim care, it is just not getting funded.
    Senator Franken. Ms. Leary.
    Ms. Leary. With respect to the Department of Justice, 
Senator Franken, in fiscal year 2011 we received 120 
applications for human trafficking grants, but we were only 
able to fund 33 of those. So there is a huge unmet need.
    And, in addition, there is a very strong need for more 
research and more data so that we can truly understand this 
problem, even the extent of the problem and characteristics of 
victims, characteristics of traffickers, what approaches really 
work, where is the evidence that they work. And we do not 
really have the funding to do that kind of research, and all of 
our partners, our Federal partners, we are all trying to work 
together to close----
    Senator Franken. And to bring that home just in terms of 
talking about one unfunded grant request and, you know, just to 
bring it home on human terms--and any one of you can do this--
what the request was, what the situation was, what the 
exploitation was. Put a human face on just one of those unmet 
grants.
    Ambassador CdeBaca. With the caveat that there obviously 
are some confidentiality issues, as far as the ones that we 
select and send up for congressional notification, obviously, 
that is part of the record, but the ones that we do not, not 
necessarily. But there are a few of the ones that really stood 
out for me, especially in West Africa. A Catholic organization 
in one of the smaller West African countries that was not only 
trying to put together a victim services shelter, something 
that we help young women, young men, as they come out of 
slavery, that kind of transition facility, but also would work 
with the government in order to come up with the legislation 
that they so sorely need. You know, we had a 13th Amendment 
from 1865 until the year 2000, and for us to really hit our 
stride, we needed modern, updated statutes, and this country 
does as well. And so we are trying to backfill with training 
and technical assistance, repositioning some of our other 
grants that are out there through some of the international 
organizations. But it does not give you the day-to-day work 
that that nongovernmental organization could have done on the 
ground in West Africa. And that is, I think, just repeated over 
and over across the applications.
    Senator Franken. Ms. Leary, advocates in Minnesota have 
talked about a pressing need for culturally competent services 
for Native American victims of human trafficking. Can you tell 
us about the efforts being made to offer culturally competent 
training for law enforcement or service providers?
    Ms. Leary. It is a pressing need not just for Native 
American victims but for victims from so many different 
cultures, and we find those victims not only around the world 
but certainly here in the United States. And what we are doing 
to try to foster that culturally competent service delivery is 
providing training through our technical assistance providers.
    I think this is a problem across the board in victim 
services with any kind of victim. You need to understand where 
the victim is at in order to effectively work with him or her. 
It is not just language. It is understanding the traditions, 
the culture, the kind of personal orientation where that 
individual might be.
    With respect to the Native American population, the Office 
of Victims of Crime did host a day-long meeting at the Museum 
of the American Indian with practitioners from around Indian 
country around the country and with victim service providers to 
try to get a better understanding of what was happening on 
reservations and in Indian country and what are the needs of 
those victims that are not being met. And then we try to shape 
our responses and our training and technical assistance based 
on what we learn from meetings like that.
    Senator Franken. Thank you.
    Mr. CdeBaca, I was pleased that Secretary Clinton decided 
to rank the U.S. in its annual Trafficking in Persons Report. 
Labor and sex trafficking in other countries is a huge problem, 
but it would be a mistake, not to mention completely 
inaccurate, for the U.S. to pretend that this is a problem we 
have totally figured out.
    Have you seen a difference in your dialogue with other 
countries since the U.S. was added to the report?
    Ambassador CdeBaca. We have, Senator, and, in fact, a 
surprising and positive difference. There was a little 
nervousness as the data started coming in and we started 
putting the minimum standards, applying the facts and the law 
with the United States that first year. When it began to 
emerge--and I think not a surprise given all the work that had 
been done over the previous decade through the Clinton, Bush, 
and now Obama administrations on this issue--that the United 
States was looking like a Tier 1 country, because of what we 
thought might be the response from a number of countries 
saying, well, of course, you put yourself on Tier 1. If you are 
grading yourself, you are going to give yourself an A. But the 
transparency of the U.S. narrative, the accuracy, the data that 
is underpinning it, reflecting Federal and increasingly State 
efforts against human trafficking has carried the day, and most 
of the countries that we talk to actually say the fact that it 
does not pull punches but at the same time has best practices 
and then recommendations for ourselves makes it much easier to 
talk to these other countries. It has become a very important 
foreign policy tool.
    Now, there are some countries that do not like what their 
ranking is and have pointed out that we have a Tier 1 but have 
10 million, 11 million illegal aliens in the United States, 
which is perhaps more of an evidence of their misunderstanding 
of what human trafficking is than it is reflective of them 
actually reading the report.
    So we think that it has worked out very well. I was at a 
conference the day before yesterday, an in-service for folks 
from our embassies around Latin America, and a couple of the 
people who were in from embassies in countries that are not 
always the warmest towards the United States over the last few 
years said that this particular decision to rank the United 
States has made a difference in how they can talk to their 
foreign counterparts about trafficking.
    Senator Franken. Thank you, and I want to thank you all for 
your testimony and for your tremendous work on this issue.
    The record of this hearing will remain open for a week for 
additional statements and questions. Thank you, again, for your 
time and testimony.
    This hearing stands adjourned. Thank you.
    [Whereupon, at 11:15 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows.]







                            A P P E N D I X

              Additional Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                                 [all]
</pre></body></html>
